               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




      Independent Report on Employee
           Benefits, Withholdings,
      Contributions, and Supplemental
    Semiannual Headcount Reporting to
    the Office of Personnel Management

                  Attestation Report


                                          September 29, 2011

Report Number FT-AR-11-012
                                                                  September 29, 2011
                                           Independent Report on Employee Benefits,
                                                   Withholdings, Contributions, and
                                                Supplemental Semiannual Headcount
                                                 Reporting to the Office of Personnel
                                                                         Management
                                                        Report Number FT-AR-11-012



IMPACT ON:
U.S. Postal Service’s compliance with         WHAT THE OIG FOUND:
the Office of Management and Budget’s         We found differences between the
Circular Number A-136, Financial              health benefit election information in
Reporting Requirements, and Bulletin          payroll records and the Health Benefit
07-04, Audit Requirements for Federal         Election Form for one employee of the
Financial Statements.                         10 reviewed; and life insurance election
                                              information in payroll records and the
WHY THE OIG DID THE AUDIT:                    Life Insurance Election form for one
Our objectives were to assist the Office      employee of the 25 reviewed.
of Personnel Management (OPM) in              We identified 58 of 209 CFCs in the
assessing the reasonableness of               Postal Service’s payroll system that
employee benefit withholdings, Postal         have different campaign names and/or
Service benefit contributions, and            addresses from those the OPM
employee benefit enrollment                   provided. We identified 587 of 100,613
information; and to confirm Combined          employees whose CFC codes in the
Federal Campaign (CFC) program                Postal Service’s payroll system did not
accounting codes and payroll data to          match the OPM’s CFC code associated
OPM records.                                  with the employee’s work location. This
                                              includes four employees at work
                                              locations that have no official campaign.

                                              Link to review the entire report
September 29, 2011

MEMORANDUM FOR:            ANTHONY J. VEGLIANTE
                           EXECUTIVE VICE PRESIDENT, CHIEF HUMAN
                            RESOURCES OFFICER

                           TIMOTHY F. O’REILLY
                           VICE PRESIDENT, CONTROLLER




FROM:                      Tammy L. Whitcomb
                           Assistant Inspector General
                            for Audit

SUBJECT:                   Attestation Report – Independent Report on Employee
                           Benefits, Withholdings, Contributions, and Supplemental
                           Semiannual Headcount Reporting Submitted to the Office of
                           Personnel Management (Report Number FT-AR-11-012)

Attached is a copy of the subject report provided to the U.S. Office of Personnel
Management (OPM) Office of Inspector General (OIG) (Project Number
11BD009FT000). This report is provided for information only and requires no
management action.

At the request of the OPM OIG, we performed the agreed-upon procedures in
accordance with generally accepted government auditing standards and attestation
standards established by the American Institute of Certified Public Accountants. We
performed the procedures solely to assist the OPM in assessing the reasonableness of
employee withholdings and U.S. Postal Service contributions in the Report of
Withholdings and Contributions for Health Benefits, Life Insurance and Retirement for
three selected payroll periods. We also verified enrollment information in the
Supplemental Semiannual Headcount Report for September 2010 and March 2011.
Finally, we confirmed the Combined Federal Campaign program accounting codes and
payroll data with the OPM records for one payroll period.




.
We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact John E. Cihota, deputy
assistant inspector general for financial accountability, or Lorie Nelson, director,
Financial Reporting, at 703-248-2100.

Attachments

cc: Joseph Corbett
    Jack L. Meyer
    Jean D. Parris
    Corporate Audit and Response Management
September 29, 2011

MEMORANDUM FOR:            HONORABLE PATRICK E. MCFARLAND
                           INSPECTOR GENERAL
                           UNITED STATES OFFICE OF PERSONNEL
                            MANAGEMENT




FROM:                      Tammy L. Whitcomb
                           Assistant Inspector General
                            for Audit

SUBJECT:                   Attestation Report – Independent Report on Employee
                           Benefits, Withholdings, Contributions, and Supplemental
                           Semiannual Headcount Reporting Submitted to the Office of
                           Personnel Management (Report Number FT-AR-11-012)

This report presents the results of our attestation engagement of procedures agreed
upon by the inspector general and the chief financial officer of the U.S. Office of
Personnel Management (OPM) (Project Number 11BD009FT000).

At the request of the OPM Office of Inspector General (OIG), we performed the
agreed-upon procedures in accordance with generally accepted government auditing
standards and attestation standards established by the American Institute of Certified
Public Accountants. We performed the procedures solely to assist the OPM in
assessing the reasonableness of employee withholdings and U.S. Postal Service
contributions in the Report of Withholdings and Contributions for Health Benefits, Life
Insurance and Retirement for three selected payroll periods. We also verified enrollment
information in the Supplemental Semiannual Headcount Report for September 2010
and March 2011. Finally, we confirmed the Combined Federal Campaign (CFC)
program accounting codes and payroll data with the OPM records for one payroll
period.

We were not engaged to and did not perform an audit, the objective of which would
have been the expression of an opinion on the withholdings and contributions for health
benefits, life insurance, and retirement; enrollment information; and the CFC program.



.
Accordingly, we do not express such an opinion. Had we performed additional
procedures, we might have found other matters that we would have reported.

This report is intended solely for the use of the inspector general and the chief financial
officer of the OPM and should not be used by those who have not agreed to the
procedures and taken responsibility for the sufficiency of the procedures for their
purposes.

If you have any questions or need additional information, please contact John E. Cihota,
deputy assistant inspector general for financial accountability, or Lorie Nelson, director,
Financial Reporting, at 703-248-2100.

Attachments

cc: Stephen J. Agostini
    Michael R. Esser
    William W. Scott, Jr.
                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Unverified Health Benefit and Life Insurance Elections ................................................... 1

Unmatched CFC Names and/or Addresses .................................................................... 2

Unmatched Campaign Codes ......................................................................................... 3

Appendix A: Additional Information ................................................................................. 5

   Background ................................................................................................................. 5

   Objectives, Scope, and Methodology .......................................................................... 5

   Prior Audit Coverage ................................................................................................... 7

Appendix B: Agreed-Upon Procedures ........................................................................... 8

Appendix C: Unmatched CFC Names and/or Addresses .............................................. 19

Appendix D: Unmatched Campaign Codes ................................................................... 23
Independent Report on Employee Benefits, Withholdings, Contributions,          FT-AR-11-012
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management


Introduction

This report presents the results of our attestation engagement of procedures agreed
upon by the inspector general and the chief financial officer of the U.S. Office of
Personnel Management (OPM) (Project Number 11BD009FT000). The report responds
to a request from the OPM to assist in assessing the reasonableness of employee
withholdings and U.S. Postal Service contributions reported in the Report of
Withholdings and Contributions for Health Benefits, Life Insurance and Retirement for
the payroll periods ending August 27, 2010; November 19, 2010; and February 25,
2011; the enrollment information reported in the Supplemental Semiannual Headcount
Report for September 2010 and March 2011; and the Combined Federal Campaign
(CFC) program information for the payroll period ended February 25, 2011. This
attestation engagement addresses financial risk. See Appendix A for additional
information about this attestation engagement and Appendix B for a description of the
procedures.

This attestation engagement is an annual requirement to comply with the Office of
Management and Budget’s Circular Number A-136, Financial Reporting Requirements,
and Bulletin Number 07-04, Audit Requirement for Federal Financial Statements.
Additionally, the OPM is responsible for ensuring compliance with CFC regulations.

Conclusion

Generally, we verifed the employee withholdings, Postal Service contributions, and
enrollment information reported and transferred to the OPM for health benefits,
life insurance, and retirement; and campaign names, campaign addresses, and
campaign codes from the Postal Service’s payroll system to those provided by the
OPM. However, we identified some unverified health benefit and life insurance elections
and some unmatched campaign names, campaign addresses, and campaign codes.

Unverified Health Benefit and Life Insurance Elections

We identified differences between health benefit election information in payroll records
and the Health Benefit Election Form for one employee of 10 reviewed; 1 and life
insurance election information in payroll records and the Life Insurance Election form for
one employee of 25 reviewed. 2 Table 1 specifies the differences.




1
    Procedure Number 3.b.
2
    Procedure Number 2.i.

                                                   1

                                                                                     .
Independent Report on Employee Benefits, Withholdings, Contributions,                                      FT-AR-11-012
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

              Table 1. Health Benefit and Life Insurance Election Differences
Employee Benefit                           Per Payroll Records                               Per Election Forms
     A          Health    No health benefits (canceled)                                     No cancellation on file
                          Basic
                          Standard $10,000
    B        Life                                                                            No election on file
                          Additional Coverage/Five Times Basic Pay
                          Family Coverage/One Multiple
Source: Postal Service payroll system and official personnel folders

The Health Benefits Election Form and the Life Insurance Election form are the original
source documents 3 and are used to initiate cancelations, withholdings, and
contributions from payroll records. Additionally, the OPM requires the Postal Service to
keep the forms on file as a permanent record. However, we could not confirm health
benefit and life insurance elections with original source documents because the Health
Benefits Election and Life Insurance Election forms were inadvertently lost, misfiled, or
destroyed. 4 We did verify that correct withholdings and contributions were paid
according to the processed Notification of Personnel Actions5 and earnings statements.
Additionally, the Postal Service contacted the employees and confirmed that current
health benefit and life insurance elections per the payroll records were valid.

Unmatched CFC Names and/or Addresses

We identified 58 of 209 campaigns in the Postal Service’s payroll system that have
different campaign names and/or addresses than those the OPM provided. 6 Chart 1
categorizes the differences.




3
  Health benefits may be elected or canceled electronically via PostalEASE or by submitting a Health Benefits
Election Form. In this case, there was no cancellation on file. Life insurance benefits can only be elected by
submitting a Life Insurance Election form. In this case, there was no election form on file.
4
  We were able to find the Health Benefit Election and Life Insurance Election forms for the other employees
reviewed.
5
  Based on the Life Insurance Election form, the Postal Service initiates a Notification of Personnel Action to start or
modify life insurance withholdings. A Notification of Personnel Action is not required for health benefits.
6
  Procedure Number 8.


                                                            2
Independent Report on Employee Benefits, Withholdings, Contributions,         FT-AR-11-012
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

                                 Chart 1. Unmatched Campaigns




              Source: Postal Service payroll system and OPM CFC data

The Postal Service uses electronic funds transfer (EFT) to transmit employee
contributions to campaigns; therefore, bank routing and account numbers are the
primary data elements to ensure a successful transaction. However, if an EFT is
unsuccessful, the Postal Service issues and mails a check to the campaign.
Accordingly, the campaign names and addresses in the Postal Service’s payroll system
exist as a secondary control. Before mailing the check, the Postal Service verifies the
name and address in its payroll system with the most recent OPM monthly update to
ensure the mailing address is current. 7 The unmatched campaign names and
addresses may be due to differences between the date the Postal Service data was
extracted from the payroll system and the date the OPM posted the CFC data to its
website. However, we did not determine the exact cause as it was beyond the scope of
this attestation engagement. We provided the list of differences to the Postal Service,
who will evaluate it for correction (see Appendix C).

Unmatched Campaign Codes

We identified 587 of 100,613 employees whose campaign codes in the Postal Service’s
payroll system did not match the OPM’s campaign code associated with the employee’s
work location. 8 This includes four employees at work locations that have no official
campaign. 9 The differences could be attributed to organizational changes, promotions,
or relocations throughout the year. Additionally, it is possible that coding errors exist
within the Postal Service or with the OPM’s information. However, we did not validate
these assumptions because it was beyond the scope of this attestation engagement.


7
  EFT is generally used; it is rare that a check is issued.
8
  Procedure Number 9.
9
  Brookhaven, MS; Shaw, MS; Winstonville, MS; and Beaumont, TX.


                                                     3
Independent Report on Employee Benefits, Withholdings, Contributions,            FT-AR-11-012
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

We provided the list of differences to the Postal Service, who will evaluate it for
correction (see Appendix D).

We were not engaged to and did not perform an audit, the objective of which would
have been the expression of an opinion on the withholdings and contributions for health
benefits, life insurance, and retirement; enrollment information; and the CFC program.
Accordingly, we do not express such an opinion. Had we performed additional
procedures, we might have found other matters that we would have reported.

This report is intended solely for the use of the inspector general and the chief financial
officer of the OPM and should not be used by those who have not agreed to the
procedures and taken responsibility for the sufficiency of the procedures for their
purposes. This report is provided for information only and requires no management
action. We offered no recommendations.




                                                   4
Independent Report on Employee Benefits, Withholdings, Contributions,                             FT-AR-11-012
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

                                Appendix A: Additional Information

Background

The Postal Service Information Technology and Accounting Service Center (IT/ASC) in
Eagan, MN, is responsible for calculating, disbursing, and reporting employee
withholdings and Postal Service contributions for health benefits, life insurance, and
retirement. As of March 4, 2011, the Postal Service employed more than 666,700
people (approximately 556,100 with benefits).

During each payroll period reviewed, 10 the Postal Service withheld more than
$83 million and contributed about $299 million toward benefits. The Postal Service
transmitted these funds to the OPM via the Retirement and Insurance Transfer System
(RITS) and prepared the Report of Withholdings and Contributions for Health Benefits,
Life Insurance and Retirement for each payroll period detailing the amounts associated
with each benefit category. Additionally, the Postal Service submitted to the OPM the
Supplemental Semiannual Headcount Report detailing the number of employees
associated with each benefit category for September 2010 and March 2011.

The CFC is the world’s largest annual workplace charity campaign. 11 Postal Service
employees make contributions through payroll deductions to support eligible non-profit
organizations that provide health and human services throughout the world. The IT/ASC
in Eagan, MN, is responsible for payroll coding and disbursing the contributions to 209
campaigns.

The OPM correlates campaigns with work locations (cities, counties, and states). The
Postal Service has approximately 32,470 locations, 1,700 of which are in cities and/or
counties with no official campaign. During the payroll period reviewed, 100,613 Postal
Service employees contributed more than $1 million to the campaigns through payroll
deductions. Contributions are submitted to the campaigns via EFT. If the EFT is
unsuccessful, a check is issued and mailed to the campaign.

Objectives, Scope, and Methodology

Our objectives were to:

    Assist the OPM in assessing the reasonableness of employee benefit withholdings
     and Postal Service benefit contributions in the Report of Withholdings and
     Contributions for Health Benefits, Life Insurance and Retirement, as well as
     enrollment information in the Supplemental Semiannual Headcount Report.

    Confirm the CFC program accounting codes and payroll data with OPM records.


10
   This timeframe included approximately 59,900 employees who declined health benefits and approximately 1,400
employees who waived life insurance coverage.
11
   The OPM manages the CFC and ensures compliance with CFC regulations.


                                                       5
Independent Report on Employee Benefits, Withholdings, Contributions,                              FT-AR-11-012
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

To accomplish our objectives, we applied the agreed-upon procedures to the payroll
periods ending August 27, 2010, and February 25, 2011, coinciding with the
Supplemental Semiannual Headcount Report for September 3, 2010 and March 4,
2011, respectively. We randomly selected another payroll period, ending November 19,
2010, for additional testing. We limited our CFC testing to one payroll period ending
February 25, 2011.

We confirmed RITS data by verifying payroll source documents. We reviewed personnel
documents for 45 employees 12 to verify salaries, retirement, and the election or non-
election of health benefits and life insurance. For all employees, we independently
calculated employee withholdings, Postal Service contributions, and enrollment
information for health benefits, life insurance, and retirement. We compared the results
to actual employee withholdings and Postal Service contributions submitted to the OPM
to determine whether difference existed. For the CFC program, we compared work
locations, accounting codes, and payroll deductions to the CFC campaigns approved by
the OPM to identify differences.

We conducted this engagement from February through September 2011 in accordance
with the American Institute of Certified Public Accountants attestation standards and
generally accepted government auditing standards. The sufficiency of the agreed-upon
procedures is solely the responsibility of the inspector general and the chief financial
officer of the OPM. Consequently we make no representation regarding the sufficiency
of the agreed-upon procedures either for the purpose for which this report has been
requested or any other purpose. We discussed our observations and conclusions with
management officials on September 22, 2011, and included their comments where
appropriate.

We relied on computer-generated data from the Postal Service’s payroll system. To
validate the data, we traced the basic pay and benefit categories for selected
employees to supporting documentation and compared the results to the
computer-generated data. We determine that the data were sufficiently reliable for the
purposes of this report.




12
  The universe for sample selection does not include approximately 149,500 employees who elected health benefits
and basic life insurance only (no optional coverage elected).


                                                       6
Independent Report on Employee Benefits, Withholdings, Contributions,                    FT-AR-11-012
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

Prior Audit Coverage

                                                    Final
                                   Report          Report
         Report Title              Number           Date                Report Results
    Independent Report          FT-AR-10-013       09/22/10     We identified differences
    on Employee                                                 between life insurance election
    Benefits,                                                   information in payroll records
    Withholdings,                                               and the Life Insurance Election
    Contributions, and                                          form for two employees of the
    Supplemental                                                25 reviewed. We made no
    Semiannual                                                  recommendations.
    Headcount Reporting
    Submitted to the
    Office of Personnel
    Management
    Independent Report          FT-AR-09-010       09/18/09     We verified employee
    on Withholdings and                                         withholdings, employer
    Contributions for                                           contributions, and enrollment
    Health Benefits, Life                                       information reported and
    Insurance,                                                  transferred to the OPM for
    Retirement, and                                             health benefits, life insurance,
    Employee Headcount                                          and retirement. We did not
    Data                                                        identify any errors or
                                                                differences that exceeded the
                                                                materiality limits the OPM
                                                                established.
    Independent Report          FT-AR-08-013       09/12/08     We identified two discrepancies
    on Withholdings and                                         on the Supplemental
    Contributions for                                           Semiannual Headcount Report:
    Health Benefits, Life                                       aggregate base salaries for the
    Insurance,                                                  Civil Service Retirement
    Retirement, and                                             System (CSRS) offset
    Employee Headcount                                          employees did not accurately
    Data                                                        reflect the actual salaries paid
                                                                for the reporting period, and the
                                                                number of employees enrolled
                                                                in the CSRS offset with no
                                                                deductions made was
                                                                incorrectly reported. We made
                                                                no recommendations.




                                                   7
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-11-012
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

                           Appendix B: Agreed-Upon Procedures




                                                   8
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-11-012
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                   9
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-11-012
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                  10
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-11-012
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                  11
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-11-012
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                  12
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-11-012
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                  13
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-11-012
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                  14
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-11-012
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                  15
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-11-012
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                  16
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-11-012
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                  17
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-11-012
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                  18
Independent Report on Employee Benefits, Withholdings, Contributions,                          FT-AR-11-012
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

                 Appendix C: Unmatched CFC Names and/or Addresses

                                                                                            Differences




                                                                                            Address
                                                                                     Name
Code      Name/Address per Postal Service              Name/Address per OPM




                                                                                                             State
                                                                                                      City


                                                                                                                     ZIP
0006    Mobile Area CFC                         Southwest Alabama CFC
        PO Drawer 89                            218 Saint Francis St                  •      •                       •
        Mobile, AL 36601-0089                   Mobile, AL 36602
0007    Muscle Shoals Area CFC                  Muscle Shoals Area CFC
        300 Industry St                         PO Box 1228                                  •                       •
        Florence, AL 35630-4914                 Florence, AL 35631-1128
0051    Arizona CFC                             Arizona CFC
        PO Box 86750                            330 N Commerce Park Loop                     •                       •
        Tucson, AZ 85754-6750                   Suite 200
                                                Tucson, AZ 85745
0105    Southern California CFC                 San Diego County CFC
        4699 Murphy Canyon Rd                   4699 Murphy Canyon Rd                 •
        San Diego, CA 92123-4320                San Diego, CA 92123
0106    CFC Northern California                 CFC Northern California
                th                                     th
        1911 18 St                              913 20 St                                    •
        Sacramento, CA 95811-6709               Sacramento, CA 95811
0109    Southern California Tri-County CFC      Southern California Tri-County CFC
        1331 Garden Highway                     PO Box 30080                                 •         •             •
        Sacramento, CA 95833-9755               Laguna Niguel, CA 92607
0140    CFC of Pikes Peak Region                CFC of Pikes Peak Region
        PO Box 565                              6660 Delmonico Dr #503D                      •         •      •      •
        El Granada, CA 94018-0565               Colorado Springs, CO 80919-1899
0141    Metropolitan Denver Area CFC            Metropolitan Denver Area CFC
        PO Box 565                              6660 Delmonico Dr #503D                      •         •      •      •
        El Granada, CA 94018-0565               Colorado Springs, CO 80919
0142    Larimer County CFC                      Larimer County CFC
        424 Pine St, Suite 104                  424 Pine St, Suite 102                       •
        Fort Collins, CO 80524-2421             Fort Collins, CO 80524
0163    Western Central Connecticut CFC         Western Central Connecticut CFC
        30 Laurel St                            2911 Dixwell Ave, Suite 205A                 •         •             •
        Hartford, CT 06106-1361                 Hamden, CT 06518
0164    Southeast Connecticut CFC               CFC of Southeast Connecticut
        30 Laurel St                            2911 Dixwell Ave, Suite 205                  •         •             •
        Hartford, CT 06106-1361                 Hamden, CT 06518
0181    Space Coast CFC                         Space Coast CFC
        937 Dixon Rd                            937 Dixon Blvd                               •
        Cocoa, FL 32922-6806                    Cocoa, FL 32922
0185    Northeast Florida and Southeast         Northeast Florida and Southeast
        Georgia Regional CFC                    Georgia Regional CFC                         •                       •
        1301 Riverplace Blvd, Suite 400         PO Box 41428
        Jacksonville, FL 32207-9000             Jacksonville, FL 32203-1428
0193    Southwest Florida CFC                   Southwest Florida CFC
        7275 Concourse Dr                       7273 Concourse Dr                            •
        Fort Myers, FL 33908-2644               Fort Myers, FL 33908-2644
0194    Escarosa CFC                            Escarosa CFC
        1301 W Government                       1301 W Government St                         •                       •
        Pensacola, FL 30502-5314                Pensacola, FL 32501



                                                  19
Independent Report on Employee Benefits, Withholdings, Contributions,                        FT-AR-11-012
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

                                                                                          Differences




                                                                                          Address
                                                                                   Name
Code      Name/Address per Postal Service              Name/Address per OPM




                                                                                                           State
                                                                                                    City


                                                                                                                   ZIP
0211    Metropolitan Atlanta CFC                Metropolitan Atlanta CFC
                              th                                      nd
        100 Edgewood Ave, 4 Floor               100 Edgewood Ave, 2 Floor                  •
        Atlanta, GA 30303-3026                  Atlanta, GA 30303
0212    Central Savannah River Area CFC         Central Savannah River Area CFC
        PO Box 1724                             630 Ellis St                               •                       •
        Augusta, GA 30903-1724                  Augusta, GA 30901
0217    Middle Georgia Area CFC                 Middle Georgia Area CFC
        PO Box 1302                             277 Martin Luther King Jr Blvd W           •                       •
        Macon, GA 31202-0016                    Macon, GA 31201-0513
0220    Athens Area CFC                         Athens Area CFC
        1 Huntington Rd, Suite 805              1 Huntington Dr, Suite 805                 •                       •
        Athens, GA 30606-7216                   Athens, GA 30608
0230    Southwestern Idaho CFC                  Southwestern Idaho CFC
        PO Box 7963                             2340 S Vista Ave, Suite 100                •                       •
        Boise, ID 83707-1963                    Boise, ID 83705
0249    Chicago Area CFC                        Chicago Area CFC
        44 E Main, Suite 208                    218 S Wabash, Suite 540                    •         •             •
        Champaign, IL 31820-3649                Chicago, IL 60604
0283    Greater Indiana Area CFC                Greater Indiana Area CFC
        PO Box 625                              55 S State Ave, Suite 314                  •                       •
        Indianapolis, IN 46206-0625             Indianapolis, IN 46201
0405    Chesapeake Bay Area CFC                 Chesapeake Bay Area CFC
        PO Box 64571                            PO Box 1576                                •                       •
        Baltimore, MD 21264-4571                Baltimore, MD 21203-1576
0432    Western Massachusetts CFC               Western Massachusetts CFC
        30 Laurel St                            393 Maple St, Suite 2                      •         •      •      •
        Hartford, CT 06106-1361                 Springfield, MA 01105
0457    Kalamazoo Area CFC                      Kalamazoo Area CFC
        709 S Westnedge Ave                     709 S Westnedge Ave                                                •
        Kalamazoo, MI 49007-6003                Kalamazoo, MI 49007-5099
0500    Southern Mississippi CFC                Southern Mississippi CFC
        PO Box 4019                             PO Box 2128                                •                       •
        Gulfport, MS 39502-4019                 Gulfport, MS 39502-2128
0501    CFC of Northeast Mississippi            CFC of Northeast Mississippi
        24 Dogwood Ln                           PO Box 1795                                •         •      •      •
        Covington, LA 70435-9525                Jackson, MS 39215-1795
0503    Jackson Metro Area CFC                  Jackson Metropolitan Area CFC
        PO Box 23169                            843 N President St                         •                       •
        Jackson, MS 39925-3169                  Jackson, MS 39225-3169
0520    Columbia Area CFC                       Columbia Area CFC
        PO Box 681                              1700 E Pointe Dr, Suite 201                •                       •
        Columbia, MO 65205-0681                 Columbia, MO 65201
0524    Heartland CFC                           Heartland CFC
        1080 Washington                         1500 E Bannister Rd, Room 1160             •                       •
        Kansas City, MO 64105-2216              Kansas City, MO 64131
0527    CFC of Northwest Missouri               CFC of Northwest Missouri
                                                        th
        PO Box 188                              118 S 5 St                                 •                       •
        Saint Joseph, MO 64502-0188             Saint Joseph, MO 64501




                                                  20
Independent Report on Employee Benefits, Withholdings, Contributions,                      FT-AR-11-012
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

                                                                                        Differences




                                                                                        Address
                                                                                 Name
Code      Name/Address per Postal Service              Name/Address per OPM




                                                                                                         State
                                                                                                  City


                                                                                                                 ZIP
0540    Big Sky CFC                             Big Sky CFC
                                                         nd
        PO Box 669                              2920 2 Ave N                             •                       •
        Billings, MT 59103-0669                 Billings, MT 59102
0620    Capital Region CFC                      Capital Region CFC
        1 United Way                            PO Box 13865                             •                       •
        Albany, NY 12205-5588                   Albany, NY 12212
0627    Chemung and Steuben County CFC          Chemung-Steuben Counties CFC
        300 Civic Center Plaza                  300 Nasser Civic Center Plaza            •
        Corning, NY 14830-0001                  Suite 220
                                                Corning, NY 14830
0637    Greater Utica and Herkimer County       Greater Utica Herkimer County
        233 Genesee St                          270 Genesee St                           •                       •
        Utica, NY 13502-4625                    Utica, NY 13502-4617
0652    CFC of Central Carolinas                CFC of Central Carolinas
        PO Box 601942                           301 S Brevard St                         •                       •
        Charlotte, NC 28260-1942                Charlotte, NC 28202
0674    Minot Area CFC                          Minot Area CFC
                                                      nd
        PO Box 848                              15 2 Ave SW                              •                       •
        Minot, ND 58702-0848                    Minot, ND 58701
0715    Green County CFC                        Greater Tulsa Area CFC
        PO Box 1625                             PO Box 1625                       •
        Tulsa, OK 74101-1625                    Tulsa, OK 74101-1625
0747    Lancaster County CFC                    Lancaster County CFC
        630 Janet Ave                           630 Janet Ave                                                    •
        Lancaster, PA 17601-4527                Lancaster, PA 17601-4589
0749    North Central Pennsylvania CFC          North Central Pennsylvania CFC
                 rd
        2450 E 3 St                             1225 Clayton Ave                         •
        Williamsport, PA 17701-4006             Williamsport, PA 17701
0754    3 Rivers/Pennsylvania West CFC          3 Rivers/Pennsylvania West CFC
        PO Box 565                              PO Box 110047                            •         •      •      •
        El Granada, CA 94018-0565               Pittsburgh, PA 15232
0760    Luzerne/Columbia Counties CFC           Luzerne/Columbia Counties CFC
        8 W Market St, Suite 450                450 Citizens Bank Building               •                       •
        Wilkes-Barre, PA 18701-1808             Wilkes-Barre, PA 18711
0770    Rhode Island and Southeastern           Rhode Island and Southeastern
        Massachusetts CFC                       Massachusetts CFC
                                                                                         •         •      •      •
        30 Laurel St                            200 Niantic Ave
        Hartford, CT 061061361                  Providence, RI 02907
0773    Midlands Area CFC                       Midlands Area CFC
        1800 Main St                            PO Box 152                               •                       •
        Columbia, SC 29201-2433                 Columbia, SC 29202-0152
0792    Sioux Empire CFC                        Sioux Empire CFC
        1000 N West Ave #120                    1000 N West Ave #120                                             •
        Sioux Falls, SD 57104-2832              Sioux Falls, SD 57104-1314
0839    North Central Texas CFC                 North Central Texas CFC
        16414 San Pedro Ave, Suite 940          624 Six Flags Dr, Suite 940              •         •             •
        San Antonio, TX 75232-2281              Arlington, TX 76011




                                                  21
Independent Report on Employee Benefits, Withholdings, Contributions,                      FT-AR-11-012
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

                                                                                        Differences




                                                                                        Address
                                                                                 Name
Code      Name/Address per Postal Service              Name/Address per OPM




                                                                                                         State
                                                                                                  City


                                                                                                                 ZIP
0842    Fort Hood CFC                           Fort Hood CFC
          th
        78 St Building 4230, Room 135           208 W Ave A                              •         •             •
        Fort Hood, TX 76544-0001                Killeen, TX 76541
0846    Rio Grande Valley CFC                   Rio Grande Valley CFC
        PO Box 187                              1200 E Hackberry, Suite F                •                       •
        McAllen, TX 78505-0187                  McAllen, TX 78501
0853    Greater Temple Area CFC                 Greater Temple Area CFC
        PO Box 1312                             18 S Main, Suite 811                     •
        Temple, TX 76503-1312                   Temple, TX 76503
0854    Greater Texarkana Area CFC              Greater Texarkana Area CFC
        214 Spruce St                           PO Box 106                               •                       •
        Texarkana, TX 75501-5619                Texarkana, TX 75504
0898    Potomac CFC                             Potomac CFC
        3310 Shannon Park Dr                    3310 Shannon Park Dr                                             •
        Fredericksburg, VA 22408-2379           Fredericksburg, VA 22408-0398
0905    North Shenandoah Valley CFC             CFC of North Shenandoah Valley
        PO Box 460                              329 N Cameron St, Suite 201              •                       •
        Winchester, VA 22604-0460               Winchester, VA 22601
0923    King County CFC                         King County CFC
        PO Box 16727                            19115 W Valley Highway                   •         •             •
        Seattle, WA 98116-0727                  Suite H-100
                                                Kent, WA 98032
0924    Inland Northwest CFC                    Inland Northwest CFC
        920 N Washington                        920 N Washington, Suite 100              •                       •
        Spokane, WA 99202-1222                  Spokane, WA 99201-2229
0925    CFC of South Puget Sound                CFC of South Puget Sound
                                                                   th
        PO Box 2215                             1501 Pacific Ave, 4 Floor                •                       •
        Tacoma, WA 98401-2215                   Tacoma, WA 98402
0927    Island County CFC                       CFC of Island County
        PO Box 798                              830 SE Bayshort Dr, Suite 202            •
        Oak Harbor, WA 98277-0798               Oak Harbor, WA 98277
0931    CFC of North Puget Sound                CFC of North Puget Sound
        3120 McDougal Ave, Suite 200            3120 McDougal Ave, Suite 200                                     •
        Everett, WA 98201-4433                  Everett, WA 98201-4521
0957    Badgerland CFC                          Badgerland CFC
        2059 Atwood Ave                         PO Box 7548                              •                       •
        Madison, WI 53707-6608                  Madison, WI 53707-7548

 58                                      TOTALS
                                                                                        51
                                                                                                  13


                                                                                                                 47
                                                                                 3




                                                                                                         6




                                                  22
Independent Report on Employee Benefits, Withholdings, Contributions,                      FT-AR-11-012
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

                          Appendix D: Unmatched Campaign Codes

                                                                           CFC
  Duty                                                                              CFC
                                                                           Code
Station                                                                             Code    Number of
                       City                      County           State     per
Finance                                                                              per    Employees
                                                                          Postal
Number                                                                              OPM
                                                                          Service
            Ashland                   Clay                         AL      0002     0006         1
            Seward                    Kenai Peninsula Borough      AK      0283     0030         1
            Tucson                    Pima                         AZ      0715     0051         1
            Long Beach                Los Angeles                  CA      0109     0096         1
            Mojave                    Kern                         CA      0096     0095         2
            San Diego                 San Diego                    CA      0109     0105         1
            Plymouth                  Litchfield                   CT      0162     0163         1
            Windsor                   Hartford                     CT      0432     0162         1
            Washington                District of Columbia         DC      0754     0990         1
                                                                           0642     0189         2
                                                                           0589     0189         1
            Opa Locka                 Dade                         FL      0621     0189         1
                                                                           0685     0189         1
                                                                           0109     0189         1
            North Metro               Gwinnett                     GA      0684     0211         2
            Macon                     Bibb                         GA      0163     0217         1
            Savannah                  Chatham                      GA      0257     0218         1
            Boise                     Ada                          ID      0728     0230         1
            Carol Stream              DuPage                       IL      0259     0249         1
                                                                           0259     0249         1
            Palatine                  Cook                          IL
                                                                           0754     0249         1
            Springfield               Sangamon                     IL      0528     0257         1
            Iowa City                 Johnson                      IA      0095     0259         1
            Harlan                    Harlan                       KY      0354     0808         1
            Broomes Island            Calvert                      MD      0409     0990         1
            Assonet                   Bristol                      MA      0770     0427         5
            Attleboro                 Bristol                      MA      0770     0427         1
            Windsor                   Suffolk                      CT      0162     0427         1
            Chartley                  Bristol                      MA      0770     0427         1
            Dighton                   Bristol                      MA      0770     0427         2
            East Freetown             Bristol                      MA      0770     0427         4
            Easton                    Bristol                      MA      0770     0427         2
            Fairhaven                 Bristol                      MA      0770     0427         5
            Fall River                Bristol                      MA      0770     0427        33
            Fall River                Bristol                      MA      0770     0427         1
            Fall River                Bristol                      MA      0770     0427        19
            Sommerset                 Bristol                      MA      0770     0427        17
            Fall River                Bristol                      MA      0770     0427        11
            Haverhill                 Essex                        MA      0162     0427         1
            Mansfield                 Bristol                      MA      0770     0427         3
            New Bedford               Bristol                      MA      0770     0427        29
            Acushnet                  Bristol                      MA      0770     0427         4
            New Bedford               Bristol                      MA      0770     0427        16
            North Dartmouth           Bristol                      MA      0770     0427         5
            South Dartmouth           Bristol                      MA      0770     0427        10
            North Attleboro           Bristol                      MA      0770     0427        24



                                                   23
Independent Report on Employee Benefits, Withholdings, Contributions,                      FT-AR-11-012
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

                                                                           CFC
  Duty                                                                              CFC
                                                                           Code
Station                                                                             Code    Number of
                      City                     County             State     per
Finance                                                                              per    Employees
                                                                          Postal
Number                                                                              OPM
                                                                          Service
            North Dighton             Bristol                      MA      0770     0427         4
            North Easton              Bristol                      MA      0770     0427         4
            Norton                    Bristol                      MA      0770     0427         3
            Raynham                   Bristol                      MA      0770     0427         2
            Raynham Center            Bristol                      MA      0770     0427         2
            Rehoboth                  Bristol                      MA      0770     0427         9
            Seekonk                   Bristol                      MA      0770     0427         4
            Sheldonville              Norfolk                      MA      0770     0427         1
            South Easton              Bristol                      MA      0770     0427         1
            Swansea                   Bristol                      MA      0770     0427         8
            Taunton                   Bristol                      MA      0770     0427        19
            Westport                  Bristol                      MA      0770     0427        15
            Detroit                   Wayne                        MI      0453     0452         1
            Westland                  Wayne                        MI      0249     0452         1
            Ely                       St. Louis                    MN      0249     0481         1
            Brookhaven                Lincoln                      MS      0811     NONE         1
            Shaw                      Bolivar                      MS      0506     NONE         1
            Winstonville              Bolivar                      MS      0506     NONE         1
            Springfield               Greene                       MO      0339     0524         1
            Lincoln                   Lancaster                    NE      0551     0552        11
            Lincoln                   Lancaster                    NE      0551     0552        14
            Lincoln                   Lancaster                    NE      0551     0552        43
            Lincoln                   Lancaster                    NE      0551     0552        17
            Lincoln                   Lancaster                    NE      0551     0552        20
            Lincoln                   Lancaster                    NE      0551     0552        71
            Lincoln                   Lancaster                    NE      0551     0552        20
            Lincoln                   Lancaster                    NE      0551     0552         9
            Lincoln                   Lancaster                    NE      0551     0552         1
            Omaha                     Douglas                      NE      0551     0552         1
            Waverly                   Lancaster                    NE      0551     0552         1
            Wellfleet                 Lincoln                      NE      0552     0551         1
            Henderson                 Clark                        NV      0589     0560         1
            Las Vegas                 Clark                        NV      0189     0560         1
            Manchester                Hillborough                  NH      0427     0571         1
            Butler                    Morris                       NJ      0560     0589         1
            Jersey City               Hudson                       NJ      0975     0589         1
            Newark                    Essex                        NJ      0580     0589         1
                                                                           0990     0580         1
            Trenton                   Mercer                       NJ
                                                                           0589     0580         1
            Albion                    Orleans                      NY      0630     0621        10
            Blossvale                 Oneida                       NY      0637     0631         1
            Cobleskill                Schoharie                    NY      0644     0620         1
            Rochester                 Monroe                       NY      0621     0630         1
            Sherrill                  Oneida                       NY      0637     0631         1
            Stittville                Oneida                       NY      0637     0631         1
            Albemarle                 Stanly                       NC      0897     0652         3
            Charlotte                 Mecklenburg                  NC      0453     0652         1
            Fayetteville              Cumberland                   NC      0185     0656         1



                                                    24
Independent Report on Employee Benefits, Withholdings, Contributions,                      FT-AR-11-012
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

                                                                           CFC
  Duty                                                                              CFC
                                                                           Code
Station                                                                             Code    Number of
                        City                     County           State     per
Finance                                                                              per    Employees
                                                                          Postal
Number                                                                              OPM
                                                                          Service
                                                                           0589     0655         1
                                                                           0175     0655         1
            Greensboro                Guilford                     NC
                                                                           0684     0655         1
                                                                           0481     0655         1
            Raleigh                   Wake                         NC      0684     0655         1
            Rocky Mount               Edgecombe                    NC      0900     0655         1
            Cincinnati                Hamilton                     OH      0686     0682         1
            Toledo                    Lucas                        OH      0481     0693         1
            Wooster                   Wayne                        OH      0689     0684         1
            Gresham                   Multnomah                    OR      0095     0728         1
            Johnstown                 Cambria                      PA      0754     0742         1
            Pittsburgh                Allegheny                    PA      0684     0754         1
            Pittsburgh                Allegheny                    PA      0162     0754         1
            Clarksville               Montgomery                   TN      0811     0351         1
            Fayetteville              Lincoln                      TN      0811     0004        13
            Flintville                Lincoln                      TN      0811     0004         1
                                                                           0211     0811         2
            Nashville                 Davidson                     TN
                                                                           0990     0811         1
            Memphis                   Shelby                       TN      0211     0809         1
            Amarillo                  Potter                       TX      0072     0832         1
            Austin                    Travis                       TX      0839     0831         1
            Austin                    Travis                       TX      0524     0831         1
            Beaumont                  Jefferson                    TX      0845     NONE         1
            Belton                    Bell                         TX      0839     0853         1
            El Paso                   El Paso                      TX      0542     0840         1
            Fort Worth                Tarrant                      TX      0990     0839         1
            Houston                   Harris                       TX      0839     0845         1
            Fort Hood                 Bell                         TX      0853     0842         1
            Dallas                    Dallas                       TX      0809     0839         1
            Sandston                  Henrico                      VA      0452     0900         1
            Bellingham                Whatcom                      WA      0684     0931         1
            Bellingham                Whatcom                      WA      0684     0931         1
            Nordland                  Jefferson                    WA      0932     0921         1
            Olympia                   Thurston                     WA      0163     0925         1
            Port Townsend             Jefferson                    WA      0932     0921         1
            Cheyenne                  Laramie                      WY      0051     0971         1
   120                                           TOTALS                                         587




                                                   25
